OFFICE OF THE ATTORNEY GENERAL
CRIMINAL APPEALS

Concourse Center 4
3507 E. Frontage Road, Suite 200
Tampa, FL 33607-7013

 

ASHLEY MOODY Phone (813) 287-7900
ATTORNEY GENERAL Fax (813) 281-5500
STATE OF FLORIDA http:/www.myfloridalegal.com

August 16, 2021

Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

RE: CASE NAME: John David Wilson, Jr. v. Secretary, Florida Department of
Corrections
Case No. 21-5253

WAIVER

Dear Mr. Harris:

Respondent, State of Florida, does not intend to file a response to the petition in the
above captioned case, unless requested so to do by the Court. This is not a case in which
the death penalty has been imposed.

Please enter my appearance as Counsel of Record for all respondents in this case.
Sincerely,

ASHLEY MOODY
ATTORNEY GENERAL

C. Suzanne Bechard

Chief - Assistant Attorney General

Bureau Chief, Tampa Criminal Appeals
CarlaSuzamne.Bechard@my floridalegal.com

/gc

ce: John David Wilson, Jr. #T21940, Martin Correctional Institution,
1150 S.W. Allapattah Rd, Indiantown, FL 34956-4397
